COMMONWEALTH OF PENNSYLVANIA

OFFICE OF ATTORNEY GENERAL
JOSH SHAPIRO
ATTORNEY GENERAL

November 8, 2020
Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 783-1471
jdelone@attorneygeneral.gov
Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Washington, D.C. 20543
RE:

Republican Party of Pa. v. Kathy Boockvar, Secretary of Pa., et al.,
No. 20A84

Dear Mr. Harris:
At the time Secretary of the Commonwealth Kathy Boockvar filed her Response in Application
to the Republican Party of Pennsylvania’s Emergency Application for Injunction earlier yesterday, 63
of Pennsylvania’s counties had affirmatively confirmed their understanding and intention to follow the
Secretary’s October 28, 2020 and November 1, 2020 guidance, as noted in the Response. Resp. at 1,
5. Since the filing, the Office of the Secretary of the Commonwealth has confirmed that the remaining
four Pennsylvania counties have similarly confirmed their understanding and intention to follow that
guidance.

We would appreciate if you would circulate copies of this letter and attachment to the
Justices of the Court. Thank you.

Best regards,
/s_J. Bart DeLone___________
J. Bart DeLone
Chief Deputy Attorney General
SAK/JBD
CC: Attached service list

